                          b*



                                                   NATIONAL SCIENCE FOUNDA- ON
                                                    OFFICE OF INSPECTOR 6EmRAL
                                                      OFFICE OF INVESTIGATIONS
                                                                                 0
                                                CLOSEOUT MEMORANDUM


                                                                                  11             Page 1 of I



             In Februarv 2000 NSFIOIG received an allegation in which a bioemineering ~rofessorat a South
             Carolina ukversitv. Subrata SAHA. submi&d a hudulent final r e k t for ~ N S F -
       tnarg-                                                T - {O t
                           The report was essentially copied verbatim fiom a Master's thesis written by one of
             Subrata's students before the grant was awarded, reflecting the fact that no work was actually
            performed b                        y the award. On the basis of t h e f i n a l report, NSF funded
                     tna-rof
             a proposal                                         of $399,982, and made the first payment of
             $99'974.

          Our investigation confirmed the allegation, and determined that Subrata SAHA was responsible
                                                               -
          for the fiaud and that vktuall~all of the $99,974 of m t h d s were either * aid directly to the
          professor
          On June 01,2001 NSFIOIG referred the case to Peter Lowenberg, Department of Justice, which
          accepted it for criminal prosecution: Also on this date, NSFIOIG rec6mmended that NSF
          suspend-                    due to the fraudulent activity, which it subsequently did.

         In conjunction with the negotiation of plea agreement,-repaid               to NSF the-
         b o u t s totaling $199,274. In a d d i t i o n , m ~ m m a d ae "donation to NSF, general
         purposes'', in the amount of $27,500. ~ A H A & ~ u e s t e termhation
                                                                        d           of the grant, and.


          On February 25,2002, Subrata SAHA pled guilty in the United States District Court, District of
          South Carolina, to one count of violation of 18 USC $1001 for submission of false information
          to the Federal government. Immediately following the guilty plea, SAHA entered into in
          administrative settlement with NSF in which he agreed to be voluntarily excluded fiom
          participating in grants or contracts with the Federal government until October 1,2004.

          On June 20,2002, SAHA was sentenced in the United States District Court, District of South
          Carolina, to the offense of one count of ~ i t l e18 USC $ 1001. SAHA received a $100 assessment
          fee, $15,000 fine and term of five years probation.

          This investigation is closed and no M e r action is being taken by OIG at this time.




111                 I          Agent        I       Attorney        I       Supervisor       I           AIGI

      Sign 1 date

                                                                                                         01042-2
                  1. . This Agreement is voluntarily entered into between the National
            Science Foundation (NSF) and (1) Dr. Subrata Saha and (2)
            the purpose of fully resolving administrative issues related to NSF
            t          h             ea n t s ) .




                             d was the Authorized Organizational Representative and Principal
            Investigator on the -ants.

                   3.    NSF's' Office .of the Inspector General (OIG) conducted an
            investigation into the a        n and determined that Dr. S. Saha submitted false
            statements to NSF in connection with the a n t s . Based on the evidence
            adduced in OIG's investigation, NSF suspended the ktive -ant,          m
                 4.     Dr. S. Saha repaid to NSF all of the funds received by m n d e r
            the g r a n t s , $198,975.00. In addition, Dr.S. Saha made an unrestricted,.
            donation to NSF of $27,500.00.     .

                                                                                                   .
                   5.      The ,ants      were terminated by mutual agreement ofd-
            NSF.
                      6.   -effected          the e,fecvite                        1 5 February
        .   ..2002.

                  7.     Dr. S. Saha and the Department of Justice have agreed to a resolution
            of criminal c1aims.b~the United States against Dr. S. Saha based on the false
            stakments. As part of that resolution, Dr. S. Saha agreed to plead guilty to one
            count of violation of 18 U.S.C. 8 1001; a copy of Dr. S. Saha's plea agreement is an
            ~ttachmentto this Agreement. Dr. S. Saha so pled in the United States District
            Court for the District of Sou,& Carolina on 25 February 2002 (Case No. O2CR.
            108*ALL).
(   .
     8.    Dr. S. Saha acknowledges engaging in the conduct set f&th in his plea
apreement.

      9.     For the purposes of this Agreement: a "related entity" is any company
or other entity in which Dr. S. Saha, his wife, any relative, or any professional or
personal acquaintance has any ownership interest; an "unrelated entity" is any
entity other than a related entity; "employment" by an entity means direct
employment as well as acting as a paid consultant, advisor, subawardee, or
subcontractor for the entity; and a "responsible individual" of an entity that
employs Dr. S. Saha is the authorized organizational representative or chief
fhancial'officer of the entity; the dean, head, or director of the college or division
employing Dr. S. Saha; or the chair of the department employing Dr. S. Saha.

        10. Dr. S. Saha agrees to be voluntarily excluded, & contemplated in 45
C.F.R part 620, -fromreceiving'federal h c i a l and n o n - h c i a l assistance and
benefits under federal non-procurement programs and procurement programs and
activities until 1October 2004, with regard to any relatedentity. Before 1October
2004,Drt S. Saha will not receive or be supported by any funds from, nor Serve as
Principal Investigator (PI) or co-PI or any other position for, nor..haveh c i a l or
administrative or any other control, responsibility, or influence over, directly or
indirectly, a grant, contract, or cooperative agreement, or any-ass~iated   lower-tier
transaction as defined in 45 C.F.R 9 620.1 10, of any related entity with any agency
of the federal government.

       11. Until 1October 2004, if Dr. S. Saha is employed by an. unrelated
entity, he shall either (1) ensure that he does not directly or indirectly receive or
have any influence over the expenditure of federal funds through the entity; or
(2) obtain a written agreement by a responsible individual that the responsible
individual will personally review and approve all expeiditures of federal hnds by
Dr. S. Saha until 1October 2004'004" Dr. S. Saha shall provide a copy of this written
agreement to the OfAce of Inspector General of the National Science Foundation
before any federal funds are expended.

      12. Dr.S. Saha may apply for funding from any agency of the federal
government as a participant or principal, as those terms are dehed in 45 C.F.R           !
         8 620.105, provided that (1) he or the entity makes any disclosures required by the
         agency concerning Dr. S. Saha's voluntary exclusion; and (2) the starting date of
         the funding is afier 1October 2004..

                13. This agreement does not prohibit Dr. S. Saha from t e a c h ,
         conducting research, supervising the research ,of students, collaborating with others
     .   conducting research, or otherwise performing his duties as an employee of an
         entity, provided that he complies fully with the conditions in this agreement.

                14..   The National Science Foundation will take no administrative action
         against
              ht -                        regard'to this matter.

                15. This.agreement constitutes the entire agreement between the parties
         regarding the above described matter. No modification to this agreement shall be
         valid unless,written and signed by both parties.

                 16. This agreement terminates and settles this matter, and no party may
         bring legal or administrative action regarding this matter except concerning breach        ,-

         of this agreement.                                                                        .+;

                                                                                                 "..i,>
                                                                                                 2:.
              17. Dr. S. Saha has had the opportunity to discuss this settlement                      .
                                                                                                 ..,...


         agreement with his counsel and fully undektands and freely and ;&ntarily   ..             ..
                                                                                                 . .. .
         consents to its terms.

              '18.                  has had the opportunity to discuss, this settlement
         agreement with    m    counsel and fully understands and freely and voluntarily
         consents to its terms.

              19. This agreement .is effective on the date signed by NSF's Office of
         General Counsel.                                           .. .
..                               .   .

                20. This agreement will be null and void if not signed by NSF9sOffice of
         General Counsel $thin ten calendar days after the signing of the agreement by
         Dr. S. Saha, his c o u n s e 1 , o a s e l .
    Signed:   ..




                                  2//@    2-
                                         (date)




,
    s,
    Counsel for




    J o yChester
    Assistant General Counsel
    National Science Foundation
                                                      .'.   '   UNITED STATES DISTRICT COURT
                                                                DISTIUCT.OF SOUTH CAROLINA


                                                                          #

                                                                                  CASE NO.


                      DMTED STATES OP AMERICA




                                                                         PLEA AGREEMENT

                               The United States of America (specifically the Fraud Section, Criminal Division,                                       '   . .
                               ..

                      of the Department of Justice, h e r e e e r the Fraud Section) and SUBRATG SAHA
                      (h'ereinafter
                       . .          refmed to as the "def~dant")
                                                               enter into the following agrtzment:                                .   .
--
                               1. The defendant agrees to plead guilty to a one ,count.infonnationwhich charges

                      that on a about July, 1999, in the District of South CaoUna and elsewhere, the defendant

                      did ka~winglyand w i W y make ,and we, Ad cause to be made andwed, fslrc writings
                               U




                      and docments knowing the same to contain mdterially fase, fictitious and fiauduleplt
                                            . w
                      statements &entries, to .it the defendant did knowingly and willfully pFpare, execute
                                                                                                             . .
     .   ..           and submit and cause to be prepared, executed and sutgittcd to the National Science
                  Foundation (NSF)                    a Final Repon f a NSF gram-which
                                                                              .   .                          .     .   ..
                                                                                                                            represented that      .

              .       defendant had c&ied out certain research activities under the grant, whereas in tnnh and
                  .
                      fhct, as the defendant well. knew,
                                                    .    those research activities had bee~accomplishedbefore
                       #   .
                      the period of the grant, inviolation of                              18, United States Code, Section 1001.,         .   .
                                        ' .

 .       .                                    .   .
 I                                                                                     .    *   .   ..
                               .    .




                                                                   . .
                                                                          ,       -1
                                        .       2. The defendant a p e s to wake indictm~tbya grand jury and agms 1.0 plead                 .
                                                                                .   ,


                                .guiltyto the ~nfonnatioa'
                                                3. The defendant is aware that the sentence will be imposed in m n f o ~ ~ with
                                                                                                                           @ the
                                    c&....i ;LiiLciichg Guiutilncs an6 kolicy . Statements (hereinafter "Sentencing
                    '


                                Guidelinesn), and that the 'applicable guidelines will be determined by the Court relying
                                in part on the results of a ProSentmce Investigation by the 'COW'S ~mbationOffice,                     '.



                            ,   which investigaiion will commence'&k
                                                                   the pilty.plea has,been entered. .Thedefendant
                                                                                                                            .      .
                                is also &are that, .undercertain circm!itmces, the Court may depnrt.f?om the applicable
                                guideline range.and impose a sentence that .is tither more'severeor less severe than the
                                guideline range. Knowing these fm,the defendant understands and acknowledges that

.__>   ..                       the Cotkt bar the authority to impose zinj sentence within rind up to the statutory

;.,                             maximum authorized by law for the offense idatifid in pmgapb I and that tha    '




                                defcndrmt may got withdraw the plea solely as a mt ofthk sentence imposed.
                                                                                 1

                                                4. The defendant also understands and acknowledges that the Court may impose a

                    .           statutory maximum term ofimprisomhent of up to'-                (5) years, followed by a tam of
                .               supervised release. In additioi to a term of .imprisonme*t and supnvised klease, the               '




                                Court may impose a fine ofup to twice the gross gain derived fionil the offense, twice the

                            gross'loss rekulting h m the offense or S250,OOO. whichever k greater, and shall order
.           .
                                restitution.                           ..
                                    .       .
            .   .               -               5.   The ddcsldaat M e r undkrstands and rcknowledgps that, in ad4tion to my
                        .       sentence
                                .        imposed under paragraph4 of this: agreement, a spedal assrumcnt in the
    _.   .            amount of SlOOwill be hposcd on the defendant. "lhe defttldam a p c g QpI my .sptdal.

                      assessment hposed shall be paid at the time of sentencing.
                                                                           ..



                                   6. The Fraud Section reserves thc right to inform the Court and the Probation

                      .Office of all facts perrinent to the sentencing proms, including..all
                                                                                     .   . relevaint information

                      concerning the offenses committed, whether charged or not, as well            as concerning the
     .
                      defendant and the defmciant's background. Subject only.to the express tams of any

                      agreed-upon sehtaicingmmmendations contained in this agreement, the Fraud Section
             .        mt r-M
                       e                    the right to make any recomm&ndation as'to the quality and quantity.of



                              .   ''7.The Fraud Section agrees that it will.recojnmend at sentencingthat the Court
:.-'.. .         ..
                                                                                                                                    .," :.
..
                      reduce by two levels t&e sentencing guideline
                                                                 . .
                                                                   .
                                                                     level
                                                                        .
                                                                           applicable to .thedefkndant's offege,
.:._
.:.                                                                                                                                 ...
                      pursuiiit to Section 3 ~ 1 . 1of the Sentencing .Guide-         based -upon the defendant's
                                                                                                                                          7




                      recognition and aflhnativt and timely acceptaace of pasonal mpbnsibility. 'However,
                      the.FrwdSection-willnot be.required to make this sentencing recommendation if the-
                      defendant: (1) fails or refuses'to ,makea full, accurate and complete disclosure to .the .
                      ,Probation MBct and !he Fraud Section of thCcircumtances surrounding the r e l m.                     .
a                                                                                                           .   .   .   .

                 ..   offense conduct and his p e n t financial condition;,or (2) commits any misconduct after                  .



                      tin-g          into this plea a~rscmcnt,including but not limited to committing.r state or

                  '   .fed@ offense, violating any term of release; or making a false statement or
                      minepresentation to any governmental entity or official.              .   .
                                         8. Thc Fraud Section and the defmdant agree that, although not binding 04 the                                                     -    .
                                                                                                                                           .                   .

                                                               , will jointly recommend that ,the Cow
                                 Probation Ofice or the C O ~they                                                                        the
                                                                                                                            .       .
                 .               followhrg fiadings and wnclusioG as to'the sentence to be imposed:

                                              -   a             &: That the relevantamount of actual, probable or intended loss

                                 under Section 2l?1.10(1) of the Sentencing Guideline resulting fmm the offense(s)
                         '       committed in 'thiscase is more than $70,000, but no more than $120,000;                '       .


                                              .   b..       .   Rwtitution:It is the position of the Fraud Section that thi dehdant
                                                                                                        .   .
                                                                           .
                     -           has paid full.dtution                         .




.   .
                                         9. The defendant is aware that the sentence has not yet been determined.by the                            '




                                 ..Court.'The-defendantalso is aware that any estimate of the probable sentencing.mgeor
            *<.,                 sentence that.the defkdm may-.recdve, whether that 1 &timare comes fiom the
            I                    def&dantns attorney, the government, or the Probation Office, is a prediction, not a                                      ..
                                                                                               .   .

                                 promise, and isnot binding on onthe.Fm~d
                                                                       Section, the Probation Ofice or the Court. 7he                                      .

             -
                                 defendant understands fiuther that any recommendation that the govenrment ,makes to
                             the Court as to.sentencing,whether pursuant to this agreement or othuwise,, is not
                                     .    .
        .                        bmding on the Court and the Court may disregard 'he recomkmdation in its, entirety.
                                                   . .

                             Thc d e b d m understands and acknowledg~s,as pre$ously acknowledged in paragraph
             .               .

                             3 above, that the defendant may not withdraw his plea based,upon theC!o&ts decision

                             not to acoept a scntencin$recommenhtion made by .the defendsnt, the                                        or a
                             recommendationjointly mqdc by both the defendantmd the government.,
                                                                                   .   .


                                         10. The defendant agree3 that defendant shall
                                                                                  ..
                                                                                       booperate 'fully with the Fraud
                                                                                     . .
                                                                                                                                                       .           .
                                                                                                                .   .
                                                                                                                                               .                       I        .
                                                                                                                                                                       ..-../
                         .   Section by:          . .   '




                                                                                           .   .
                     .       .             (1)      providing mthfbl and coinpkte i n f e d o n and testimony, and.

                             producing .documents, r e d s and other evidence, when called upon by.the Fraud
                             ~ e c t i o iwhaha in int.&ews,     before a grand jury, or at any trial or otb* Court

    .:                       proceeding;
                                           (b) appearing at such grand jury proceedings hearings, trials, andoher
                             judicial proceedings, and at meetings, a9 may be required by the Fraud Section.
                                     11. The b u d Section reserves the right to evaluate the nature   md extent bf the        .



                             defmdants cooperation and to make the defendant's cooperation, or lack thereog h o r n
                             to tbe Court a the time d smtardng If in the sole md unreviewable judgment of the
                                                                                                       ..
         ,i - Fraud Section the defmd.antvscooperation.is of such quality and signifiwa to.the .
             ...             investigation or prosecution of oth& criminal matters as to warrant the Court'sdownward                   ..   ,
                                                                                                                                            ,




             .           .   dcpamns fm the sentence required b i the sentencing ~idelines,the Fraud Section                           I.i




             ..              may at or before sentencing make a motion pursuant to Section 5Kl.l of the, Sentencing,
                 .           Guidelines*18 U.S.C. 3553(e), or a Ruk 35 motion.subsequent to sentencing, reflecting
                             that the defmdant has provided &bstantial ass&tance and recomnkding sentence
                                                                                                                                   .
                             tedu'ction. The dehdant acdrrrti&dges and agrees, howwer* that notKing in this

                             agreement may 6e construed to require the Fraud ~ e & o nto file'sucha motion and that        '




        .'               the F m d Sectionts.ass.essment o f the aahur, due, truthfhlness, completeness and

                         ammcy of the defm.dant's' ~ ~ ~ ~ c r ashall n binding on'the d e f b t . The defendant
                                                                 t i obe

                         understands and aclmawledges that the. Court. is under do obligation to grant a

.   .                    g ~ ~ m m e .motion
                                       nt    pwuant to Title 18, United States Code, s$tion 3553(t),           SK1.I: df   '


                 .       the: sentencing
                                 . .     Guidelines or Rule 35 of the Federal Roles of C~iminalPmcedun, as



    98'd                         tZBL PTS ZBZ   ,                        331ISV. JO 1 d X Sn           ZP:9T   ~Ei2-7-r-1~14
                                       referred to in paragraph 10 df this agreement,. should the government exacist is                     .        -
                                                                                         .
                                       discnetion to file such a motion.     .
                                                                                             .




                                               12. Defendant. understands that      4 law gives defendant. rhe right to appeal
                                       segtences imposed under the Sentencing Guidelines. Defendant gives up the right to
                                                            .   .

                             : appeal .any sentence imposed by the Cotut and the                   manner in which the sentence is      .

                                   determined, provided that (a) h e sentence is within the statutory maximum provided by -                              .,
                                   law mdet 18 U.S.C. 1001,and'(b) the Court-doesnot d.epartart
                                                                                            upward in offense l
                                                                                                              d or
                                   canhDal Histow category*. with the exception that the Coun mighr.upwardly depart to
                                   level H for the loss figure un U.S.S.G. 2Fl.l(b). Defendant also gives up any right to
      ;..k               .-        raise a collateral attack on the sentece or his guilty pleas and convictions. Both parties
                                  -;

                                                                                                                       .
-
- .yf            .   .             agree to give up their right to.-appealthe sentence hpared by the Court W the manner
                                                                                                                            .




                                                                                                                                                I'
>.'
       :-.
... !".'..               :         in which. the         Sentence   is determined, provided 'that the sentence complies with all

                     .        .    applicable statutes.

                                               13. In consideration for pleading guilty, the ~ r a u dSection agrees that it will not
                              ;    fbtbex p o s e the defendant for other offenses that were the . subject of the                       .            .

                                   iqestigation.. In addition, the Fraud section &es             mat it will not

                                                                                        for any matter that was investigated in this
                                                    ..
             .           .
                                       .   .
                                   case. 'Ihc defendant acknthvledges that no representations have bem rnade.0 him with

                                   rrapedto my civil or administrative consequences'that may result fmm thisplea of

                                   guilty, because such matters are solely within the discntion'ofthe specific administrative '         .
                                                                                                                                                     .
                                                                                                                   ,       ..

                                   or 'governmental
                                         . .
                                                   entity involved and that the undersigned,parties cannot .bbidany other
                                                                                                                                                {      :
                                   fedem& state, ,orlocal authority.'bconsidemtion for not p r o s e c u t i n g                                     -+.
                     o                             later than the date of the entry of a guilty plea by the.defendant.
                                       14.   hisi is the entire agreement and'understanding be~ern'the~r.audSection and
                     the defendant.                 There are no other agreements, promises, representations, or




                                                                              UNITED STATES ATTO-


                     Date:
.    .+.                        .      .                                      TRIAL ATTORNEY
                                                                              CRIMINAL DMSION, FRAUD' SECT~ON
     'i...
    .i:.i                                                                               -
                                                                              ROOM 44 18 BOND BUILDING         -"         '   .   .
                                                                                                                                          ,..

       I

    ....
     Z                       - ..... . .
                                                                              1400 NEW YORK AVENUE, N.W.
                                                                              WASHINGTON, D.C.20005                                   .    -
                                                                                                                                          .....




                                                                   By:



     I       .   .

                     Date:                 7t70had.b             .By:.        -
                                                                               W@-.'
     C                                                              . SUBRATASAHA
                                                                      DEFENDANT




                 wgd.    '   TZBL PTS         az                          '     m~isnrdo~aasn               2b:9f   ?!--2f-~n-l   -   .
-JUL.-ll-2002         17:30           US. DEPT DF JUST ICE                                        202 514 7021             P.0.2
                ...   .   .      --   t                                                  \




                              United States District Court                                                 R
                                                                                                           . JN 20 2w2        eY"
                               District of South Carolina
UNITED STATES OF AMERICA                                                                                  - - - -- - - --- .- -
                                                                (For Offenses ConunittedOn or A h November 1,1987)
        VS.
                                                                Case Number: 8~02-108-1
SUBRATA SAHA
                                                                Dennis Kirk and M arshall Wm. Retained                 b\@lo
                                                                DtSendant's Attorney
THE DEFENDANT.
      pleaded guilty to wunt(s) One ( 1) of Informatiion on Febnurv 25.2002
      pleaded nolo contendere to count(s) on which was accepted by the court.
      was found guilty on count(s) on rfiera plea of not guilty.

Accordingly, the court has adjudicated that the defendant is guilty of the foUowing offense(s):
                                                                             Date Offense                     Count
Title & Section                  patnre of Offense                            Conclude4                      Numberls)
18:lOOl                          Please see indictment                       7/27/99                         d
       The defendant is sentenced as provided in pages 2 through 4, of this judgmmt. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
      The defendant has been found not guilty on count(s)
 [7     Count(s) 0 is          are    dismissed on the motion of the United States.
         Forfeiture provision is hereby dismissed on motion of the United States Attorney.

        IT IS ORDERED that the defendant shall notifjr the United States Attorney for this district within 30 days
of any change of name, residence, or mailing address until all fines, restitution, costs, and special assessments                  ,
                                                                                                                                   ,
imposed by this judgment are fully paid. If ordered to pay restitution, the defendant shall notify the court or United
States attorney of any material change in the defendant's economic cucumstances.
Defendant's Soc See. No.:                                        June 20.2002
Defendant's Date of Birth:                                       Date of Impmition of Judgment
Defendant's USM No.:

Defendant's Residence Address:




                                                                 rnraaret B. Sevmour. USDJ
                                                                 Name and Title of Judicial Officer
    'JIJL-11-2082              17: 31             US DEPT     OF JUSTICE
I
     ..                        ....               .t..             .- . -. ,   #




    A 0 2456 (Rev. 9/00) 1t-       ino CriminslCYe
                                        -
                          Shed S, Pan A CriminalM o n W Pcnaltiu
                                              -                                                   -,




    DEFENDANT:SUBRATASAHA
    CASE NUMBER: 8:02- 198- 1
                              CRIMINAL MONETARY PENALTIES
                                            The defesdantwill rnake all checks and money orders


       The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of
    payments set forth on Sheet 5, Part B.
                                   ,4ssessment                   Fine                      Bedstitution
       Totals:                ila!&!N                          S 15,000.00              3-

    a          The determinationofrestitutionis d e f d until An AmendedJudgment in a CrSminal Cusewill be entered
               after such determination.

               Thc defendant shall make restitution (i-ncludingcommunity restitution).to the following payees in the
               amount listed below.
                If the defendant makes a partial payment, each payee shall receive an approximately proportionedpaymeat
                unless specified in the priority order or percentage payment column below. Hawever, pursuant to
                18U.S.C.$3664(i), all nonfederal victims must be paid in full prior to the United Statesreceiving payment.

                                                                                                             Priority Order or
      Name of Payee                         *Total                                 Amount of                 Percentage
                                            Amount of Loss                         Restitution Ordered       of Payment


    SEE VICTIMS LIST OF VICTIMS.



                Ifapplicable, restitution amount ordered pursuant to plea agreement ....                 ... . . ...... . S
     [7         The defendant shall gay interest on any fineor rntitution of more than $2,500, unless the fineor rertitution
                is paid in full before the fifteenth day after the date ofjudgment, pursuant to 18U.S.C.$3612(f). All of the
                payment options on Sheet 5,Part 19, may be subject to penalties for default and delinquency pursuant to 18
                U.S.C. §3612(g).

                The court detmined that the deimdant does not have the ability to pay interest and it is ordered that:
                d I1Kinterest requirement is waived for the fine andtor restitution.
                a                                                                      a
                      The interest requirement for the fine andlot restitution is modified as follows:

    **Findingsfor the total amount of losses are required under Chapters 109& 1 10,l IOA, and 113A of Title 18 for
    offenses committed on or a e r September 13,1994,but before April 23,1996.
         tJLIL-11-2002           17: 3 1         US DEPT OF JUSTICE                                      202 514 7021,        P. 0 4
        - -....    .    -.-. .         -.         ,:.   --," .            - . ----    .          \.,



                       .                                                                                                  Page 3

           A;     MSB(kv.
                        9m)J u d p m t in a ~imtul
                                                Cwc
                                                                                                                      4.
                                                                                                                       -p   -




                   .. .
            DEFENDANT: SUBWTA SAHA
            CASE NUMBER: 8:02-108-1
                                                        SCNEDULE OF PAYMENTS
                   Payment of the total criminal monetary penalties shall bc due as follows:
            A           Lump sum payment off 100.00 due immediately, balance due
                           not later than,
                           or in accordancewith     C,     D, or        E bcloar, or
            B      a Payments        to begim immediately (maybe combined with      0 C,         D,or        E below); or
            C           Payments in monthly (e.g., equal, weekly, monthly, quarterly) installments of gp less than $I .OOO.OQ over
                        a period of (e.g., months or yean), to commence (e.g., 30 or 60 days) after the date of this judgment; or
            D      a Paymemts in (c.&
                                  equal, weekly, monthly, quarterly) installments of S o w a puiad of (e.g., months or
                                                             release from imprisonment to a term of supexvision; or
                        years), to commence (e-g., 30 or 60 days) a*
            E . [7 Special instm~onrregarding thepayment of cximinal monctaty penalties:

.   .
            Unless the court has expresslyorderedothenvise in the special instructionsabove,if thisjudgment imposes aperiod
            of imprisonment, payment of criminal monetary penalties shall be due during the period of imprisomnent. All
            criminal monetary penalties, exceptthose payments made through the Federal Bureau of Prisons' Inmate Financial
            Responsibility Program, are made to the clerk of court, unless otherwise directedby the court,the probation officer,
            or the United States attorney.

            The Defendant shall receive credit for aU payments previously made toward any criminal monelary penalties
            imposed.



                        Joint and Several
                        Defendant Name, Case Number,andloint and Several Amount



                       m e defendant shall pay the cost of prosecution.
                       The defendant shall pay the hllowing court cost(s):    ,




                       The defindant shall forfkit the defendant's interest in property as directed in the Preliminary Order of
                       Forfeiture, filed           and the said order is incorporated herein as part of this judgment:
            Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
            (4) tine principal, (5) cammunity resitution, (6) fine interest, (7) penalties, and (8) costs, including cast of
            prosecution and court costs.
    eJUL-11-2082 17:31                       US DEPT OF JUSTICE                                                   202 514 7021            P. 85
.     ...         -..   .-                                                        -..                   .   .




    DEFENDANT S U B M A SAHA
    CASE NUMBER: 8102-
                     108- 1
                                                               PROBATION
            The defendant is hereby sentencedto probation for a term of. Five (5) years.

            The defendant shall not commit another federal, state, or local crime.

            The defendant shall not illegally possess a controlled substance.

     For oflenses committed on or after September 13,1994:

        The defendantshallrefkain fiom any unlawll use of a conlrolledsubstance. The defendantshall submitto one
     drug test within 15 days of placement on probation and at least two periodic drug tests thereaftm.
               Thc above drug testing condition is suspendedbased on the court's determination that the defendant poses
               a low risk of future substance abuse. (Check, if applicable.)
               The defendant shall not possess a fi-     destructive device, or any othcr dangerous weapon

                      If thisjudgment imposes a fine or a restitution obligation, it shall be a condition of probation that the
                defendant pay arry such fine or restitution in accordance with tbe Schedule of Payments set forth in the
                Criminal Monetary Pkalties sheet of thisjudgment.

            The defendant shall comply with the standard conditions that have been adopted by this court (set forth
     below). The defendant shall also comply with the additional conditions on the attached page.

                                          STANDARD CONDITIONS OF SUPERVISION
     1) &e defendant shall not leave the judicial district without the permhion of the court or probation OSW,
     2) the defendant shall report to the probation oficer and shall submit a truthful and complete written report within the first fivc days of
         each monrh;
     3) the defendan1 shall answa trurhfidly all inquiries by the probation officerand follow the insauctions of the probation officer;
     4) tbe dekndaut shall suppon h   is or hir dependents and meet othcr family responsibilities;
     5) the defendant shall work reguIarIy at a lawfhl ocutpation unless excused by the probation onicer for schmIing, training, or other
         acceotablerens0n.c
     6) the dcfendantshznotify the probation officer at leas ten days prior u,any change in residence or anploymenr;
     7l the defendant shall refrain from cx&ssivc use of alcohol and shall not uurcke. mssess. use. d i b u t e . or administer m y controlled
      -. substance or any piqhernalia elated to controlled substYlces. exceit as prt<ribed by a p-hysi~ia.
     8) the dehdmt shall not Gquent place3 where conmlledsubsbuLtcs ~IC illegally sold, used, distributed. or n d m ' i ,
     9) the Qfendaat shall not associate with any pcrsons engagedin criminal activity, and shall not associatewith my person convicted of
         a felony uulcss graated permission lo do so by the pmbation officer,
     10) the defeodaotshallpermit a probation officcr rovisit him or her nt anytime at home or clsewhen and shallpermit confiscationof any
         contraband observed in plain view by the probation officer.
     11) thedcfcndantshallnotifyh e probation officer withim seventy-two hoursdbcing m t e dor questionedby a law cnforcemenrofficer,
                             not enter i~:o2.y amcrntct !o act as ;.A infomer o: ? s . - r i d -?:r.: of 2 !zw csfc'cre.~.~-!t
     12) the rlcfe~c!ants?~sll                                                                                             agency 1u~thoutthe
         permissionof the coue
     13) directed by the probation ofictr, the defendaathll wtify third panies ofrisks that may be occasionedby tbc defendant3criminnl
         record or personal history or characteristics, and shall permit the probation officer to make such notificdons ard to conf~nthe
         dcfcndvlh oomplwlce with such notification requkmen~
.   - - ---
    ,
                       --
        , ~ u + - ~ ~ - d k l k l d 1.f':31
                                    -.,. -...-.      US DEPT OF
                                                  .-...        ...
                                                                     JUSTICE
                                                                        .-,- -.. -..-          .-..       - .. .   2..-0. 2 5 1 4 7 0 2 1    P.06

                                                                                                          I
                                                                                                                                            Page 1.




          DEFEMDANT: SUBRATA SAHA
          CASE NUMBER: 8:02- 108-1
                                                            STATEMXNT OF REASONS
                                                          (NOT FOR PUBLIC D I S C L O S m )

          4 The court adapts the factual findings and guideline aPpli&tionin the prestntmce report.
                                                                            OR
                The court adopts the fxrual findings and guideline application in the presentence nport except (see attachme* if necessary):




          Gnidellae Range Determined by the Court:
                Total Offwe Level:
                Criminal History Category.. I
                Imprisonment Range: 4 to months
                Supervised Release Range: 2 to 3 years          .
                Fine Range: ~2.000.OQ to $20.000.00


                Fine waived or below the guideline range because of inability to pay.
                Total Amount of Restirution:         %

           m-Discretionary restihltion is not ordered because the complication and prolongation of the sentencingprocess resulting
                from the fashioning of a resrioltion order outweighs the need to provide restitution to any victims, purswnt to 18 U.S.C.
                §3663(a)(B)(ii).


           0Resritutionpursuant to the mandatory viaimmtitution provisionsis not ordered in this title 18property offnse because
                thenumber ofidentifiable victims isso large as tornakerestitution impracticable,pursuantto 18U.S.C. $3663A(c)(3)(A).


           [7 Restimtibnpursuant m the mandatory victim restitution provisions is not or-             in thistitle 18 property o f f w e because
                dererminingcomplex issues of fact related to the cause or amount of the victim's losses would complicateor prolong thc
                sentencing process to a degree that the need to prcivide restitution to any victim is outweighed by the burden on the
                sentencing process, pursuant to 18 U.S.C. #3663A(c)(3)(B).


           [7 For offenses committed on or anex Sept. 13,1994 but More April 23,1996, that require the total mount o f loss m be
                stated, pursuant to Chaptcrs 109A, 110, 110A, and 113A of Title 18, restitution is not ordered because the economic
                circumstances of the defendant do not allow for the payment of any amount of a restitution order, and do nor allow for
                the payment of any or some @on of a restitution order in the foreseeable future under any reasonable schedule of
                payments.


           0 Partial reaimtion is ordered, pursuant to 18 U.S.C.§3553(0),         for the following reason):
..                     17:31
     --'JUL-11-2002    .
                                             US DEPT OF JUSTICE
                                             -
                                              ,
                                                I
                                                .
                                                 --.. .
                                                 "

                                                                                               I
                                                                                                      202 514 7821             P.07


                                                                                                                        Page    ?

       DEFENDANT: SUIBMTA SAHA
       CASE NUMBER: 8:02-108-1

                                                STATEMENT OF REASONS
                                              (NOT FOR PUBLIC DISCLOSURE)

       0 The sentence is within the guideline range, that rangedoes not ucccd24 months, and the court finds no reason to depart
          from the sentence called for by application of the guidelines.




       0 The sentence is within ibe guideline range, that range cxccedr 24 months,and the sentence is imposed fbr the foIlowiing
          rmon(s):




       .. The sentence dcpartr from the guideline range:
                                                                 OR

                 upon motion of ?hegovernem, as a r&ult of a ddendant's substantial assistance, or
                 upon motion of the defendant and without objection of the government.
              Downward departure to:
              Total Offtnsc Level:   8
              Criminal History Wgory: I
                                         -
              Imprisonment Range: 0 6 months
              Supervised Release Range: 2 - 3 years
                                     -
              Fine Range: 2,000.00 20,000.00
              S 100.00 speciai assessmkt fee




                                                                                                                        -...
                                                                                                                      TOTRL P. 07
